 DOE/IG-0562




                               SYNCHROTRON RADIATION LIGHT
                              SOURCES AT LAWRENCE BERKELEY
         AUDIT                   NATIONAL LABORATORY AND
        REPORT                 STANFORD LINEAR ACCELERATOR
                                          CENTER




                                         JULY 2002


 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                     U. S. DEPARTMENT OF ENERGY
                           Washington, DC 20585

                                 July 22, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Synchrotron Radiation Light
                          Sources at Lawrence Berkeley National Laboratory and Stanford
                          Linear Accelerator Center"

BACKGROUND

The Department of Energy's (Department) Office of Basic Energy Sciences maintains four
Synchrotron Radiation Light Source facilities designed to collect data on the structure of matter
on the atomic and molecular scale. The Department refers to these facilities as "user facilities"
because they are made available to a variety of private sector, commercial, and educational
research entities and are, as such, major instruments for enhancing the nation's science base. Our
audit focused on two of the four facilities, the Advanced Light Source, located at Lawrence
Berkeley National Laboratory and the Stanford Synchrotron Radiation Laboratory, located at the
Stanford Linear Accelerator Center. Both of these facilities generate and deliver soft x-ray and
vacuum ultra-violet light in the form of beams. Scientists at Berkeley and Stanford are allocated
beam time (shifts) to perform a variety of research.

There are two categories of users at Berkeley and Stanford, participating research teams and
independent investigators. Participating research teams submit proposals, assist in funding the
construction of beam lines, and receive a percentage of beam time (usually 75 percent) for a
period of three years. Independent investigators also submit proposals and receive beam time
based on the scientific merit of their proposals; however, because the independent investigators
provided no funding for the construction of beam lines, they were only awarded the time that
had not been allocated to participating teams.

Because of the high demand for user time and the proposals for new beam line construction, the
objective of the audit was to determine whether beam lines at Berkeley and Stanford were being
used fully.

RESULTS OF AUDIT

We found that the beam lines at the Stanford facility were being used to the fullest extent
practicable. In contrast, however, this was not the case at the Berkeley facility. Specifically, the
beam lines at Berkeley were idle 35 percent of the time, during a period in which 150
scientifically-valid research proposals had been rejected. Berkeley did not have a centralized
scheduling system and, therefore, was unaware that additional beam time was available. As a
consequence, independent researchers were unnecessarily turned away. We found, in addition,
that the Office of Basic Energy Science did not provide guidance on tracking and reporting
actual use of the Synchrotron facilities or establish useful performance measures to evaluate
their use. As a result, opportunities to conduct valuable research with the potential to benefit the
researcher, the Department, and the public were lost.
                                              -2-


The President's Fiscal Year 2002 Management Agenda placed a high priority on the need to
improve the Department's research and development investment criteria, urging that every
federal research and development dollar be invested as effectively as possible. In addition, the
Office of Inspector General identified Research and Development Investment as one of the
most significant challenges the Department faces (Management Challenges at the Department
of Energy, DOE/IG-0538, December 2001). The audit report includes a series of
recommendations designed to address the concerns raised at the Berkeley Synchrotron
Facility.

During the audit, we noted that the Office of Basic Energy Science plans to construct seven
additional beam lines at Berkeley in 2002 at an estimated cost of $5 million to $10 million per
line. Since we found that existing beam lines are not fully used, we discussed with
management our concern regarding the efficacy of constructing additional lines. Under the
circumstances noted during the audit, we believe further expansion of the Berkeley facility
should be carefully considered.

MANAGEMENT REACTION

The Office of Basic Energy Sciences concurred with the finding and recommendations and
will require: (1) centralized scheduling systems at all user facilities, (2) annual reporting of
actual use of synchrotron facilities, and (3) that these new requirements be considered by peer
reviewers in the formal evaluations of our facilities. Implementation of these actions will
facilitate better accountability of time by participating research teams at Berkeley. Lawrence
Berkeley Laboratory officials were given an opportunity to comment on our findings. They
raised several questions concerning the audit conclusions. A synopsis of the Laboratory's
comments and our response is appended to the report.

Attachment

cc: Chief of Staff
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
    Director, Office of Science
SYNCHROTRON RADIATION LIGHT SOURCES AT LAWRENCE
BERKELEY NATIONAL LABORATORY AND STANFORD LINEAR
ACCELERATOR CENTER

TABLE OF
CONTENTS



                Overview

                Introduction and Objective ............................................... 1
                Conclusions and Observations ........................................ 2


                Utilization of Beam Lines


                Details of Finding ............................................................. 3
                Recommendations and Comments ................................. 6


                Appendices


                Management Comments ................................................. 8
                Discussion of Additional Comments ................................ 9
                Scope and Methodology ................................................ 11
                Prior Reports ................................................................. 13
Overview
INTRODUCTION    The Department of Energy's (Department) Office of Basic Energy
AND OBJECTIVE   Sciences maintains four Synchrotron Radiation Light Source facilities:
                   •   Lawrence Berkeley National Laboratory's (Berkeley) Advanced
                       Light Source;
                   •   Stanford Linear Accelerator Center's (Stanford) Synchrotron
                       Radiation Laboratory;
                   •   Brookhaven National Laboratory's National Synchrotron Light
                       Source; and,
                   •   Argonne National Laboratory's Advanced Photon Source.
                These facilities are designed to generate and deliver intense light in the
                form of beams, which are used to study the structure of matter at the
                atomic and molecular scale. The Department makes the Synchrotron
                facilities available to researchers from national laboratories,
                universities, and industry to enhance the Nation's overall science base.

                The Berkeley and the Stanford facilities, on which our audit focused,
                have 27 and 25 beam lines, respectively. Both facilities operate three
                shifts a day, seven days a week at an average annual cost of $28.9
                million at Berkeley and $26.8 million at Stanford. Segments of beam
                line time are allocated to two categories of researchers: participating
                research teams and independent investigators. Participating research
                teams, composed of researchers who helped fund the construction of the
                beam lines, receive the majority of the time — typically 75 percent of
                the available time for up to three years — while independent
                investigators are awarded beam line time from the remaining available
                time. To be awarded time, investigators must develop proposals that
                describe the nature of their research, identify the specific beam line
                capable of meeting their research requirements, and estimate the
                amount of time needed on that line. Proposals written by independent
                investigators are submitted to a proposal review panel that evaluates
                them for scientific merit and assigns a score. Based on availability,
                time is awarded beginning with the highest scoring proposals until all
                remaining time is allocated.

                Because of the high demand for user time and the proposals for new
                beam line construction, we conducted the review to determine whether
                the beam lines at the Berkeley and Stanford Synchrotron facilities were
                being used to the fullest extent.




Page 1                                                      Introduction and Objective
CONCLUSIONS AND   While beam lines at the Stanford facility were being fully used, those at
OBSERVATIONS      the Berkeley facility were not. Specifically, beam lines at Berkeley
                  were idle during 35 percent of our observations. In addition, although
                  beam time was available, 150 scientifically valid proposals requesting
                  time were rejected. Although Berkeley has increased the number of
                  users per beam line by 12 percent over the past three years, we
                  concluded that additional users could have been accommodated.
                  Researchers had been denied time because Berkeley did not have a
                  centralized scheduling system and was, therefore, unaware that beam
                  time was available. In addition, the Office of Basic Energy Sciences
                  did not provide clear guidance on tracking and reporting use and did not
                  have performance measures to evaluate the effectiveness of its user
                  facilities. As a result, opportunities to conduct valuable research with
                  the potential to benefit the researcher, the Department, and the public
                  were lost. Unless Berkeley improves its ability to identify and allocate
                  beam line time, it may continue to deny proposals based on the
                  assumption that its beams are fully utilized.

                  In our opinion, the matters discussed in this report represent material
                  internal control weaknesses within the Department that should be
                  considered when preparing the yearend assurance memorandum on
                  internal controls.




                                                _____(Signed)__________
                                                Office of Inspector General




Page 2                                                   Conclusions and Observations
Utilization of Beam Lines

Beam Lines Not       Beam lines at Berkeley's Advanced Light Source facility were not fully
Used                 utilized even though researchers with valid scientific projects had
                     requested time to use the lines. The diagram below illustrates the floor
                     plan of the Advanced Light Source and shows examples of the location
                     of the experiments conducted using the beam lines.




                                                                                 Beamlines




                     We performed observations, based on a statistical sampling
                     methodology, of 18 of Berkeley's beam lines and found that the lines
                     were idle during 25 of the 72 observations, or 35 percent of the time.
                     In some cases, beam lines had been previously reserved by
                     participating researchers and, in other cases, no one had reserved the
                     lines. Projecting the 35 percent idle time rate over the total number of
                     available shifts, we determined that the lines were idle for 10,576 out of
                     30,458 shifts.


Page 3                                                                     Details of Finding
                      Given the projected number of idle shifts, all 150 of the rejected
                      proposals from the independent investigators could have been
                      accommodated. For example, beam line 6.3.2 was idle during three of
                      our four observations even though at least 39 research proposals
                      requesting the use of this specific line had been submitted and
                      subsequently rejected based on insufficient time available.

                      At the Stanford facility, in contrast, we determined that the use of beam
                      lines closely matched the schedule. In fact, out of 75 observations, we
                      observed only three instances in which the beam was not in use.

The Department's      The Department's Annual Performance Plan for FY 2000 set a goal to
Annual Performance    improve the management of its research enterprise to enhance the
Plan Goal             delivery of leading-edge science and technology at reduced costs. To
                      do so, the Department established a long-term strategy to manage user
                      facilities in a more integrated, responsive, and cost-effective way.

                      The importance of these facilities is also highlighted in the
                      Department's Strategic Plan (September 2000). This document
                      emphasizes that user facilities provide scientists the only means of
                      conducting the world-class research that has made the United States a
                      leader in the physical, biological, environmental, and computational
                      sciences. To provide as many research opportunities as possible at
                      facilities like those at Berkeley and Stanford, the Department must
                      make certain that managers minimize idle time and ensure that time is
                      available for proposals having scientific merit.

Weaknesses in         Independent researchers had been denied beam time because Berkeley
Reporting and         did not have a centralized scheduling system and, thus, management
Scheduling Controls   was unaware that beam time was available. In addition, the Office of
                      Basic Energy Sciences did not provide guidance on tracking and
                      reporting actual use of the Synchrotron facilities or establish useful
                      performance measures to evaluate the use of the Synchrotron facilities.

                      Berkeley had a decentralized and fragmented approach to scheduling.
                      That is, Berkeley allowed beam line scientists to establish and maintain
                      their own schedules and did not ascertain whether a beam line was
                      actually in use. This situation can be illustrated through the perceived
                      unavailability of beam line 5.3.1. In this case, a participating research
                      team was scheduled to use this line during each of our four
                      observations; therefore, it should have been operating each time.




Page 4                                                                     Details of Finding
         However, we found the beam line idle during all four observations. If
         Berkeley had assessed actual use or had a centralized system for
         scheduling, it would have known this line was, in fact, idle. This
         example also illustrates the impact of providing preferential scheduling
         to participating research teams. Specifically, once this or any
         participating research team had its scheduled time, it was not required
         to operate the beam lines during all the allotted shifts and did not have
         to report idle time or provide that time to others.

         In contrast to Berkeley's approach, Stanford required that beam time be
         scheduled through a centralized system run by administrative personnel.
         This group, which focused on efficient use of the beam lines, followed
         established procedures to assess time available and assign it
         accordingly. Further, Stanford's participating research teams were not
         given preferential scheduling; that is, they were required to schedule
         beam line time through the centralized system. By using this system,
         Stanford ensured that the beam lines were used to their fullest extent.

         In addition, the Office of Basic Energy Sciences did not provide clear
         guidance that outlined how facility managers were to track and report
         beam line use. Although the guidance stipulated that facilities were to
         report on an individual beam line basis, it did not clarify whether this
         tracking should be done through actual or scheduled use. Thus,
         facilities could report beam line use either way. However, the Office of
         Basic Energy Sciences allowed Berkeley to report on a facility-wide or
         aggregate basis, thereby severely reducing its ability to obtain a realistic
         picture of actual beam line use.

         Finally, the Office of Basic Energy Sciences had not established
         performance measures to evaluate the use of beam lines at its user
         facilities. Although it required these facilities to submit annual reports,
         these documents were used for informational purposes only and not as
         tools to evaluate performance. Thus, the Office of Basic Energy
         Sciences did not determine whether a facility was operating its beam
         lines in an integrated, responsive, and cost-effective way.




Page 5                                                          Details of Finding
Limitation of Research   Since Berkeley did not assign all available time, scientific research
Opportunities            opportunities were limited. Specifically, scientists whose proposals did
                         not receive time were, in effect, denied opportunities to perform
                         research. Previous research efforts at the Berkeley facility have led to
                         scientific discoveries in the fields of biological science, earth and
                         environmental science, and semiconductor material. Scientists have
                         also discovered methods to make solar cells more efficient and devised
                         effective strategies for fighting diseases. By unnecessarily denying new
                         proposals, the Department lost any potential research findings that
                         might have been generated. Unless Berkeley improves its ability to
                         identify available beam line time, it may continue to deny proposals
                         based on the assumption that its beam lines are being fully used.

                         We are also concerned about the Office of Basic Energy Sciences' plan
                         to construct seven additional beam lines at Berkeley in Fiscal Year
                         2002. These additional lines are estimated to cost between $5 million
                         to $10 million per line. Since existing beam lines are not being used to
                         their fullest extent, we are concerned that constructing additional lines
                         will exacerbate this situation.


RECOMMENDATIONS          We recommend that the Director, Office of Basic Energy Sciences:

                            1. Require that Berkeley management:

                                  a. Establish a centralized scheduling system; and,

                                  b. Ensure that participating research teams use their
                                     scheduled time.

                            2. Require facility managers to report actual use of Synchrotron
                               facilities; and,

                            3. Establish meaningful performance measures of beam line use
                               that can be used to evaluate management of user facilities.




Page 6                                                    Recommendations and Comments
 MANAGEMENT        The Office of Basic Energy Sciences concurred with the finding of the
 COMMENTS          draft report and planned to address the recommendations of the draft
                   report by requiring: (1) centralized scheduling systems at all user
                   facilities, (2) annual reporting of actual use of synchrotron facilities,
                   and (3) that these new requirements be considered by peer reviewers in
                   the formal evaluations of our facilities. Implementation of these actions
                   would compel participating research teams at Berkeley to be
                   accountable for their scheduled time.

                   Berkeley National Laboratory officials provided additional comments
                   which are addressed in detail in Appendix 2.


AUDITOR COMMENTS   Management's comments were responsive to the finding and
                   recommendations.




 Page 7                                            Recommendations and Comments
Appendix 1




Page 8       Management Comments
Appendix 2

                         DISCUSSION OF ADDITIONAL COMMENTS


  While the Office of Science and Berkeley officials acknowledged that scheduling could be
  made more efficient, Berkeley officials disagreed with the some of the specific findings and
  conclusions in the report. Their concerns and our responses our outlined below.

  Berkeley Comments

  Berkeley officials disagreed that 150 proposals could have been accommodated during the
  audited period (Fiscal Year 1999 through 2001). They stated that the OIG did not "take into
  account changing demand as new beam lines were built…" and added that the majority of the
  proposals for 2 of the 18 beam lines reviewed were rejected during the first half (1.5 years) of
  the audit scope and only 1 proposal was rejected during the second half.

  Auditor Response

  During our review we analyzed demand for and usage of each of the 18 beam lines
  individually – evaluating the number of proposals submitted for each particular beam and
  calculating idle time for that beam. In using this methodology, we accounted for the "changing
  demand" of the beam lines. In addition, the fact that the majority of the proposals were rejected
  at the beginning of the three-year window rather than the end does not alter the determination
  that the beamlines could have accommodated additional users.

  Berkeley Comments

  Berkeley officials stated that an error was made regarding the calculation of idle time on beam
  line 8.0.1. They believed that the line was being utilized for data taking during all four of the
  beam line observations and, therefore, could not have accommodated any of the 78 rejected
  proposals.

  Auditor Response

  Beam line 8.0.1 was found idle during two of the four floor observations. During the
  observations that the lines were idle, no one was present at the beamline, the beamline status
  monitors verified that the shutters were closed, and the beamline scientist could not provide
  data to validate the use of the beamline during the time of the floor checks.




Page 9                                                                           Additional Comments
  Berkeley Comments

  Berkeley also raised objection to the 35 percent idle time calculation. They believed that
  some of the beam lines should not have been included in the review because two of the beams
  were fully funded by industry and fully utilized and one was a "purely accelerator and
  machine physics beam having no regular use program." Finally, Berkeley indicated that some
  of the time calculated as idle was time spent for "experiment setup," and therefore should not
  be considered idle time.

  Auditor Response

  The 35 percent idle time is an average based on the percentage of time the beams were
  scheduled for use, but were not actually in use. While some of the lines were operating 100
  percent of the time, like those indicated above, others were operating less often than 65
  percent of the time – creating a 35 percent average over all 18 lines during our observations.
  The one line, cited as not having a regular use program, had accepted and allowed
  independent investigators to operate the beamline, disputing Berkeley's claim that it has no
  "regular use program." Lastly, as stated previously, we only identified a beamline as idle if
  no one was present at the line; therefore, if researchers were involved in “experiment setup,”
  someone would have been present, and we would not have counted the line as idle.




Page 10                                                                         Additional Comments
Appendix 3
SCOPE         The audit was performed at Lawrence Berkeley National Laboratory in
              Berkeley, California, and the Stanford Linear Accelerator Center in
              Menlo Park, California, from August 1, 2001, to March 15, 2002. The
              audit covered beam line utilization during FY 1999 through FY 2001.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Discussed beam line construction, utilization, and scheduling
                     processes with user facility managers;

                 •   Reviewed the proposal submission, evaluation, and allocation
                     process implemented by each facility to allocate beam time;

                 •   Judgmentally selected beam lines and determined the
                     availability and user (participating research team or independent
                     investigator) of the beam line;

                 •   Verified operation/non-operation of beam lines based on
                     contractor established schedules through floor checks on
                     December 22, 2001, and January 8, 11, and 15, 2002;

                 •   Reviewed beam line construction and operational cost data;

                 •   Reviewed Federal laws and regulations that disclose
                     expectations of user facility utilization; and,

                 •   Reviewed policies and procedures at user facilities that would
                     promote efficient facility utilization.

              To determine actual use, we judgmentally selected 18 beam lines. We
              identified times when these beam lines were scheduled to be used and
              then observed each line 4 times for a total of 72 observations. We
              established use by ascertaining that the shutters were open and by
              verifying that data was produced on the beam line during the time we
              were observing. We established that a beam line was idle when the line
              was scheduled for use, the shutter was closed, and the beam line
              scientist could not provide data to demonstrate usage during the time
              we were observing. We calculated the number of user shifts available
              for the 18 beam lines in our sample and determined that 30,458 shifts
              were available.




Page 11                                                   Scope and Methodology
          The audit was conducted in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the objective of the audit. Because our
          review was limited, it would not necessarily have disclosed all internal
          control deficiencies that may have existed at the time of our audit. We
          did not conduct a reliability assessment of computer-processed data
          because only a very limited amount of computer-processed data was
          used during the audit.

          We held an exit conference with the Director, Office of Basic Energy
          Sciences on April 24, 2002.




Page 12                                                Scope and Methodology
Appendix 4
                                           PRIOR REPORTS


  •   Relativistic Heavy Ion Collider Project, (DOE/IG-0543, March 2002). The audit found that when
      the Relativistic Heavy Ion Collider (RHIC) project was declared complete and designated as an
      operating facility in August 1999, beam collisions, which were expected for project completion,
      had not taken place; and the facility was not ready to begin operations with beam-collision
      experiments. Also, the cost of the project exceeded its $617 million budget by about $32 million.
      While the RHIC project's ultimate outcome was positive, the Department's experience offered a
      number of important project management lessons learned.

  •   Progress of the Spallation Neutron Source Project, (DOE/IG-0532, November 2001). The
      Spallation Neutron Source Project's technical scope was reduced to allow the cost and schedule
      components to be met. Specifically, the July 2001 baseline did not provide for instruments to
      address the initially planned areas of science, completion of user facilities, and critical spare parts
      to be available at the end of the construction project. This condition existed because the
      Department decided to meet the approved budget rather than ask Congress for additional funding.

  •   Peer Reviewed Literature at the Department's Light Sources, (DOE/IG-0520, August 2001).
      Peer-reviewed scientific journal articles generated from work performed at the Department's light
      sources in FY 2000 were not always available for public dissemination through Office of
      Scientific and Technical Information (OSTI). The abstracts were not available because OSTI did
      not establish procedures to ensure that peer-reviewed journal literature for research performed at
      the light sources was collected in the PubSCIENCE database. As a result, scientific advancement
      was not fully promoted, and research and development efforts are more likely to be duplicated,
      because scientists are not aware of research already performed. Also, although the Department
      reported it exceeded its performance target to increase the availability of all scientific and
      technical information (reports, journal articles, and reprints) by 25 percent from FY 1999 to FY
      2000, our review indicated that the availability of peer-reviewed journal articles generated at the
      light sources had decreased.

  •   Follow-up Audit of Program Administration by the Office of Science, (DOE/IG-0457, January
      2000). Although improvements were made in the funding process, the Department did not
      improve its process for evaluating contractors' progress on research projects. In FY 1999, the
      Department was still not evaluating research projects using milestones or metrics. Of the 241 FY
      1999 work authorizations reviewed, 84 percent did not include any milestones or metrics to
      evaluate research progress. Milestones were not used because the Department's program
      managers did not believe that basic research lent itself to the identification of scheduled activities
      or numerical measures. As a result, the Department could not objectively measure performance
      of research projects and make sound budgetary decisions based on objective measures.




Page 13                                                                                      Prior Reports
                                                                     Report No.: DOE/IG-0562


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
